 TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                         The Employee Plans Function Should
                         Continue Its Efforts to Obtain Needed
                             Retirement Plan Information



                                          September 20, 2011


                                 Reference Number: 2011-10-108




    This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
    and information determined to be restricted from public release has been redacted from this document.

Redaction Legend:

2(f) = Risk Circumvention of Agency Regulation or Statute



Phone Number | 202-622-6500
Email Address | TIGTACommunications@tigta.treas.gov
Web Site      | http://www.tigta.gov
                                                  HIGHLIGHTS


THE EMPLOYEE PLANS FUNCTION                           required to be filed was used by the EP function
SHOULD CONTINUE ITS EFFORTS TO                        to help identify abusive transactions, identify
OBTAIN NEEDED RETIREMENT PLAN                         funding or minimum coverage requirements
INFORMATION                                           issues, and conduct special projects to identify
                                                      potentially noncompliant retirement plans. While
                                                      it is too early to tell the full impact on the
Highlights                                            EP function, it is clear through discussions with
                                                      EP function personnel that the lack of this
                                                      information will have an impact on the
Final Report issued on                                EP function’s ability to effectively focus on
September 20, 2011                                    specific indicators of noncompliance when
                                                      selecting retirement plans for examination.
Highlights of Reference Number: 2011-10-108
to the Acting Internal Revenue Service                As TIGTA’s audit work concluded, the
Commissioner for the Tax Exempt and                   EP function was taking actions to mandate
Government Entities Division.                         electronic filing of its returns and schedules,
                                                      which could allow the EP function to pursue
IMPACT ON TAXPAYERS                                   obtaining additional retirement plan information
Beginning in January 2010, retirement plan            as part of annual returns. However, EP function
sponsors were no longer required to report            officials are concerned that it may take a long
certain information on annual returns that are        time before additional information is required to
processed by the Department of Labor and              be filed due to differences in the regulatory
provided to the Internal Revenue Service. The         approval processes between the Internal
Employee Plans (EP) function’s effectiveness          Revenue Service and the Department of Labor.
will be reduced because it will no longer receive     WHAT TIGTA RECOMMENDED
detailed information on the operational and
financial activities of plans, which was used to      TIGTA recommended that the Director, EP, Tax
identify the characteristics of noncompliant plans    Exempt and Government Entities Division,
for examination. Focusing on those plans most         1) continue to evaluate the information the
likely to be noncompliant is important because        EP function needs, while exploring its regulatory
bringing plans back into compliance through           and legislative options for the mandatory
examinations provides plan participants with          electronic filings of annual returns from
greater assurance that promised benefits will be      employer-sponsored retirement plans, and
available upon retirement.                            2) coordinate with the Department of Labor on
                                                      the development of a timetable for implementing
WHY TIGTA DID THE AUDIT                               changes to the annual return filings to obtain the
TIGTA initiated this audit because EP function        information to meet its tax administration
personnel expressed concerns that the lack of         responsibilities.
previously available information was affecting        In response to the report, IRS officials agreed
the EP function’s ability to achieve its tax          with the recommendations. They plan to
administration responsibilities. The overall          annually evaluate their needs from annual
objective of this review was to determine             filings, continue to work with the Tax Exempt
whether the EP function’s ability to achieve its      and Government Entities Counsel and the Office
tax administration responsibilities has been          of Benefits Tax Counsel to explore legislative
significantly affected by a reduction of previously   options for mandatory electronic filing of annual
available information from employer-sponsored         returns, and work with the Department of Labor
retirement plans annual return filings.               to develop a timetable for implementing periodic
                                                      changes to the content of annual returns.
WHAT TIGTA FOUND
Through discussions with EP function personnel,
TIGTA determined that information no longer
                                             DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                          September 20, 2011


 MEMORANDUM FOR ACTING COMMISSIONER, TAX EXEMPT AND GOVERNMENT
                ENTITIES DIVISION


 FROM:                  (for) Michael R. Phillips
                              Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – The Employee Plans Function Should Continue
                              Its Efforts to Obtain Needed Retirement Plan Information
                              (Audit # 201110018)

 This report presents the results of our review to determine whether the Employee Plans
 function’s ability to achieve its tax administration responsibilities has been significantly affected
 by a reduction of previously available information from employer-sponsored retirement plans
 annual return filings. This review is included in our Fiscal Year 2011 Annual Audit Plan and
 addresses the major management challenge of Tax Compliance Initiatives.
 Management’s complete response to the draft report is included as Appendix VI.
 Copies of this report are also being sent to the Internal Revenue Service managers affected
 by the report recommendations. Please contact me at (202) 622-6510 if you have questions or
 Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
 Organizations), at (202) 622-8500.
                                The Employee Plans Function Should Continue Its
                              Efforts to Obtain Needed Retirement Plan Information




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 5
          The Impact of No Longer Obtaining Return Information
          for Retirement Plans Cannot Be Quantified; However,
          Taxpayer Burden May Increase Without This Information .......................... Page 5
                    Recommendation 1:........................................................ Page 9

                    Recommendation 2:........................................................ Page 10


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 11
          Appendix II – Major Contributors to This Report ........................................ Page 13
          Appendix III – Report Distribution List ....................................................... Page 14
          Appendix IV – Information No Longer Received on Annual Returns ......... Page 15
          Appendix V – Impact of the Lack of Previously Required Information on
          Employee Plans Function Programs ............................................................. Page 22
          Appendix VI – Management’s Response to the Draft Report ..................... Page 25
          The Employee Plans Function Should Continue Its
        Efforts to Obtain Needed Retirement Plan Information




                   Abbreviations

DOL          Department of Labor
EFAST        ERISA Filing Acceptance System
EP           Employee Plans
IRS          Internal Revenue Service
                           The Employee Plans Function Should Continue Its
                         Efforts to Obtain Needed Retirement Plan Information




                                           Background

There are more than 867,000 employer-sponsored retirement plans (hereafter referred to as
plans) filing Form 5500 series returns1 (hereafter referred to as annual returns) with assets
totaling approximately $5.3 trillion. The Employee Retirement Income Security Act of 19742
sets uniform standards to ensure plans are established and maintained in a fair and financially
sound manner. Under the Employee Retirement Income Security Act, jurisdiction over plans is
divided among three Government agencies: the Department of Labor (DOL), the Pension
Benefit Guaranty Corporation, and the Internal Revenue Service (IRS). The IRS enforces the
standards that relate to such matters as how employees become eligible to participate in plans;
how they become eligible to earn rights to benefits; and how much, at a minimum, employers
must contribute. Within the IRS, the Employee Plans (EP) function is responsible for ensuring
plan sponsors comply with applicable statutes and regulations designed to ensure employees
receive promised benefits. The EP function accomplishes this by helping customers understand
and comply with applicable tax laws and protecting the public interest by applying the tax law
with integrity and fairness to all.
The primary source of information regarding the operations, funding, and investments of plans
are the annual returns. The annual returns include plan identifying information, assets and
liabilities of the plan, insurance, and key financial transactions that assist in identifying actual or
potential violations of the Employee Retirement Income Security Act and the Internal Revenue
Code.
Figure 1: Top of the Annual Return/Report of Employee Benefit Plan (Form 5500)
 Showing the Three Government Agencies Responsible for Compliance With the
   Employee Retirement Income Security Act and the Internal Revenue Code




Source: Form 5500.



1
  This includes Annual Return/Report of Employee Benefit Plan (Form 5500), Short Form Annual Return/Report of
Small Employee Benefit Plan (Form 5500-SF), Annual Return of One-Participant (Owners and Their Spouses)
Retirement Plan (Form 5500-EZ), and related schedules.
2
  Pub. L. No. 93-406, 88 Stat. 829 (codified as amended in scattered sections of 5 U.S.C., 18 U.S.C., 26 U.S.C,
29 U.S.C., and 42 U.S.C.).
                                                                                                        Page 1
                             The Employee Plans Function Should Continue Its
                           Efforts to Obtain Needed Retirement Plan Information



In Plan Year3 1999, the DOL assumed the administrative responsibilities for accepting and
processing paper and electronic annual returns through the ERISA4 Filing Acceptance System
(EFAST). Once it completes processing the annual returns, the DOL provides annual return
information to the IRS to meet its statutory requirements.
In June 2005, the Government Accountability Office reported5 that paper-based EFAST
processing took three times longer to process with twice as many errors than electronically
processed returns. This resulted in a substantial delay before the information was available for
compliance and law enforcement activities. As a result, the Government Accountability Office
recommended the DOL, the Pension Benefit Guarantee Corporation, and the IRS implement an
electronic processing system and mandate the electronic filing of annual returns. While the IRS
initially agreed with the report, it later determined it needed to publish regulations to mandate the
electronic filing of information needed to enforce the Internal Revenue Code. IRS officials
stated that they agreed to forego requiring certain IRS information to be filed through the DOL6
temporarily until it could take steps to mandate electronic filing. A detailed list of the
information no longer required to be filed on annual returns is shown in Appendix IV.
Beginning in January 2010, the DOL began using a new system called the EFAST 2 to
electronically process filed returns specifically required under the Employee Retirement Income
Security Act. Figure 2 shows the EFAST 2 login screen for electronically filed annual returns.
                                    Figure 2: EFAST 2 Login Screen




              Source: DOL web site.



3
  A plan year is a calendar year, or an alternative 12-month period, a retirement plan uses for plan administration.
However, the plan year can be shorter in certain circumstances (e.g., the first year a plan is in operation).
4
  ERISA – Employee Retirement Income Security Act.
5
  Private Pensions: Government Actions Could Improve the Timeliness and Content of Form 5500 Pension
Information (GAO-05-491, dated June 2005).
6
  For purposes of this report, information no longer required to be filed is defined as IRS annual return filing
information subject to the filing requirement under the Internal Revenue Code, but not subject to the filing
requirements under the Employee Retirement Income Security Act.
                                                                                                               Page 2
                         The Employee Plans Function Should Continue Its
                       Efforts to Obtain Needed Retirement Plan Information



We initiated this audit because EP function personnel expressed concerns that the lack of
previously available information was affecting the EP function’s ability to meet its tax
administration responsibilities. The IRS uses the information from annual returns for both
compliance and research activities. In general, the EP function analyzes annual return data to
look for characteristics that might indicate that a plan is not operating in accordance with
tax-exempt qualification provisions and within the terms of the plan document. The IRS then
selects plans for examination and field examiners work with plan sponsors to ensure plan
sponsors are making contributions to the plan as required, assets truly exist to satisfy liabilities
and are properly classified, and plans are operating in accordance with plan design. Once
examinations are complete, the EP function analyzes the results of examinations for
noncompliance characteristics that will help select additional plans for examinations that have
the most potential for being noncompliant. Figure 3 provides an overview of the EP function’s
examination process and how information from annual returns is used in this process.
                       Figure 3: EP Function Examination Process




                        Source: Treasury Inspector General for Tax Administration
                        depiction of the EP function examination process.

Bringing plans back into compliance through examinations and other methods is important
because it provides plan participants with greater assurance that promised benefits will be
available upon retirement.
This audit was being conducted while changes were being considered by the EP function
regarding potential electronic filing of IRS annual return information. Any changes that have
occurred since we concluded our interviews in May 2011 are not reflected in this report. As a
result, this report may not reflect the current status of the EP function’s information needs.
This review was performed at the Tax Exempt and Government Entities Division
EP Examination function in Baltimore, Maryland, and Washington, D.C., during the period
November 2010 through May 2011. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.
                                                                                               Page 3
                       The Employee Plans Function Should Continue Its
                     Efforts to Obtain Needed Retirement Plan Information



Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.




                                                                                         Page 4
                           The Employee Plans Function Should Continue Its
                         Efforts to Obtain Needed Retirement Plan Information




                                     Results of Review

Through discussions with EP function personnel, we determined that information no longer
required to be filed was used by the EP function to help identify abusive transactions, identify
funding or minimum coverage requirements issues, conduct special projects to identify
potentially noncompliant retirement plans, and populate risk models.7 While it is too early to tell
the full impact on the EP function, it is clear through discussions with EP function personnel that
the lack of this information will have an impact on the EP function’s ability to effectively focus
on specific indicators of noncompliance when selecting retirement plans for examination.
Without sufficient information to select potentially noncompliant retirement plans, the IRS may
select more compliant plans, which increases burden on the plans and results in inefficient use of
EP function resources by conducting unnecessary examinations. The ability to identify and
focus on potentially noncompliant plans is important because bringing these plans into
compliance provides plan participants with greater assurance that promised benefits will be
available upon retirement.
As our audit work concluded, the EP function was taking actions to begin drafting regulations
that would allow the IRS to mandate electronic filing of its returns and schedules. If electronic
filing of IRS returns and schedules is mandated, the IRS could begin receiving additional
information electronically and could pursue obtaining additional retirement plan information,
such as the information that is no longer required to be filed. Therefore, the EP function has a
key opportunity to reassess its data needs and determine whether previously available and/or new
information is needed to meet its tax administration responsibilities. This is a critical assessment
because of the potential impact on all retirement plans and the increased cost of processing
IRS returns and schedules through the EFAST 2. However, IRS officials are concerned that it
may take a long time before additional information is required to be filed due to differences in
the regulatory approval processes used by the DOL and the IRS. In the interim, the IRS may not
have the information it needs to effectively focus on potentially noncompliant retirement plans
when selecting plans for examination.

The Impact of No Longer Obtaining Return Information for Retirement
Plans Cannot Be Quantified; However, Taxpayer Burden May Increase
Without This Information
The ability of the EP function to effectively select retirement plans for examination is essential to
achieving its core mission of protecting plan assets and participants’ benefits through a fair,

7
  The EP function’s risk modeling program analyzes noncompliance issues identified during examinations and uses
this information to better select potentially noncompliant plans for future examinations.
                                                                                                        Page 5
                           The Employee Plans Function Should Continue Its
                         Efforts to Obtain Needed Retirement Plan Information



objective, and effective compliance program. The selection process should allow EP function
personnel to analyze annual return information to determine what compliance issues should be
addressed and to identify and focus its examination cases on plans most likely to have
noncompliance issues. Also, this process should provide information to grade examination
cases8 to ensure they are assigned to the field examiners with the required expertise and
knowledge level to work issues related to the cases.

The ability to effectively identify retirement plans that are noncompliant will be
affected by the lack of return information
We could not quantify the full impact of the inability to effectively identify potential
noncompliance because the annual returns with less information initially filed through the
EFAST 2 are just beginning to enter the EP function examination process. However, EP
function personnel provided logical explanations on how the lack of information will reduce
their overall effectiveness to identify and take law enforcement actions against noncompliant
retirement plans.
The EP function’s effectiveness will be reduced because it will no longer receive detailed
information on the operational and financial activities of plans. This detailed information is used
to identify the characteristics of noncompliant plans for examination. Without this information,
the EP function is more likely to select and perform examinations on compliant plans, which is a
less efficient use of the EP function’s limited resources and increases the burden on compliant
retirement plans that may not have been selected for examination if the information from these
plans were readily available.
The EP function uses return information at various points in the examination cycle (see Figure 3)
to ensure plan sponsors are complying with the applicable statutes and regulations. The
following is a synopsis of how the individual EP function programs used the line-item
information that is no longer required to be filed:
    •   Abusive Transactions: The EP function used                        According to EP function
        annual return information to identify plan                    personnel, some plan sponsors
        sponsors that promote abusive transactions and                  are no longer required to file
        identify unusual plan assets or investment                   information the EP function once
                                                                         used to identify potentially
        arrangements. Without the information, the                          abusive transactions.
        effectiveness of the EP function’s compliance
        efforts will be reduced because it will be




8
  Grading examination cases is a process where the EP function reviews examination cases and determines the grade
level (required expertise and knowledge) needed to work the cases.
                                                                                                         Page 6
                            The Employee Plans Function Should Continue Its
                          Efforts to Obtain Needed Retirement Plan Information



        difficult to evaluate the nature and scope of the abuse or potential areas of noncompliance
        and identify emerging issues.9
    •   Examination Case Grading: The EP function analyzed annual return information to
        assign cases to examiners with the required expertise and knowledge to conduct the
        examination. Without previously available information, examination cases may not be
        assigned to examiners with the required expertise and knowledge. As a result, examiners
        may close cases without identifying and working with plan sponsors to correct
        noncompliance with tax laws. At the same time, cases with simpler issues assigned to
        overqualified examiners will result in an inefficient use of EP function resources if they
        could had been working cases with more difficult issues.
    •   Minimum Coverage Issues: This information is used to determine whether employees
        that qualify for retirement benefits are properly included. The lack of information makes
        it difficult to effectively determine whether a business owner is circumventing statutory
        minimum coverage requirements. *******************2(f)*********************
        *************************************2(f)******************************
        *************************************2(f)******************************
        *************************************2(f)******************************
        *************************************2(f)******************************
        *************************************2(f)******************************
        ************************************2(f)*******************************
        *********2(f)**********************.
    •   Compliance Issues: Program models score line-item information from annual return
        filings to identify retirement plans with the greatest audit potential for examination and
        identify issues that need to be examined for potential noncompliance. Without annual
        return information, the EP function will be unable to effectively research annual return
        line items to identify retirement plans that are not compliant, identify new areas of
        noncompliance, and facilitate noncompliance risk assessment strategies. For example,
        EP function officials stated that certain current examination projects that identified high
        rates of noncompliance cannot be replicated in the future due to the loss of certain annual
        return information.
A detailed list showing the objective of each EP function program and how the lack of
information previously available to it affects its ability to achieve its tax administration
responsibilities is presented in Appendix V.
In the future, the lack of information may also negate improvements the EP function has made to
identify areas of noncompliance. A recently issued Treasury Inspector General for Tax


9
 Emerging compliance issues can include unusual assets or investments by plans and invalid collective bargaining
arrangements.
                                                                                                          Page 7
                           The Employee Plans Function Should Continue Its
                         Efforts to Obtain Needed Retirement Plan Information



Administration report10 noted the EP function’s methods for selecting examinations have
evolved over the years and examinations are now identifying a larger percentage of retirement
plans that are noncompliant. The improvements ensured the EP function’s resources were being
used more efficiently and reduced the burden on plan sponsors and administrators by focusing on
plans that were most likely to be noncompliant. However, these improvements can potentially
be negated because some annual return information is no longer available, which may prevent
the EP function from effectively selecting noncompliant retirement plans for examinations. For
example, an EP function official stated that the EP function could still examine statistically valid
samples of annual returns to ensure plans were compliant; however, this sample would likely
include both compliant and noncompliant plans. In addition, examinations of the noncompliant
plans may not start with any pre-identified issues to focus on during the examination which
could cause examinations to take longer.

The EP function must continue its efforts to obtain information needed to select
retirement plans most likely to be noncompliant
While the EP function lacks the data to fully quantify the impact that the lack of information is
having on its ability to efficiently meet its tax administration responsibilities, logical
explanations were provided to explain why it is more difficult to identify potentially
noncompliant retirement plans with less annual return information. With less information being
filed, the EP function has explored alternative methods for meeting its tax administration
responsibilities regarding retirement plans. For example, EP function personnel have located
information by researching web sites, used historical return data (which eventually will become
outdated and less useful), and developed new types of risk models. These methods are useful as
an interim solution, but the EP function believes they are not sufficient for meeting the
EP function’s long-term tax administration responsibilities because they provide only general
information and not the detailed line-item return information needed to identify the operational
and financial activities of retirement plans. According to EP function personnel, detailed
line-item information is necessary to effectively identify
individual noncompliant plans for examinations.
                                                                            As part of its study of
In addition to using other methods to collect data on                       potentially mandating
retirement plans, the EP function has also been actively                 electronic filing, the IRS will
working on potentially mandating electronic filing of                   need to work with the DOL to
IRS information under the Internal Revenue Code. A                     obtain the information it needs
group comprised of officials from the EP function’s                     to meet its tax administration
                                                                               responsibilities.
Rulings and Agreements office and the IRS Office of Chief
Counsel, as well as executives from the Department of the


10
  The Employee Plans Function Has Improved the Process for Selecting Retirement Plans for Examination
(Reference Number 2011-10-050, dated May 10, 2011).
                                                                                                        Page 8
                             The Employee Plans Function Should Continue Its
                           Efforts to Obtain Needed Retirement Plan Information



Treasury, approved a project to obtain explicit authority to mandate electronic filing of
IRS returns and schedules under the Internal Revenue Code.
As our audit work concluded, this project team was in the process of identifying the scope,
issues, and content necessary to begin actual drafting of the regulation that will allow the IRS to
mandate electronic filing of its returns and schedules. If electronic filing of IRS returns and
schedules is mandated, the IRS could begin receiving additional information electronically and
could pursue obtaining additional retirement plan information, such as the information it
previously received prior to the implementation of the EFAST 2.
While the actions being taken to mandate electronic filing sound promising, there are a couple of
potential risks that must be considered. One risk is that the IRS may not be successful in
obtaining the explicit authority to mandate electronic filing. If that is the case, the EP function
should continue to explore alternative methods for receiving needed information. In addition,
IRS officials informed us that even if they know what information they would like added to the
annual return, it may take time for any changes to come about. According to IRS officials, the
IRS and the DOL have different regulatory processes in meeting their respective statutory
requirements, which could result in delays.11 They further indicated that the IRS agreed to
temporarily allow certain data not to be filed as part of the annual return with the understanding
that the IRS would be able to make changes to all versions of the Form 5500 series of returns
in Fiscal Year 2011; however, the proposed changes have been delayed until at least
Fiscal Year 2013. As our audit work ended, IRS officials were not sure when the next window
of time would be available for making changes to annual return requirements.

Recommendations
As part of the IRS’s exploration to potentially mandate the electronic filing of annual return
information covered specifically under the Internal Revenue Code, the Director, EP, Tax Exempt
and Government Entities Division, should:
Recommendation 1: Continue to evaluate the information the EP function needs to receive
on the annual return filings for employer-sponsored retirement plans to meet its tax
administration responsibilities by ensuring that the benefits of obtaining the information
generally outweigh the cost and any burden imposed on plan sponsors and administrators. To
assure that the EP function meets its tax administration responsibilities, it should also continue to
explore regulatory and legislative options for mandatory electronic filings of annual returns from
employer-sponsored retirement plans.
         Management’s Response: The IRS agreed with this recommendation. To continue
         to evaluate the EP function’s information needs, the EP function will:

11
  In addition, significant revisions will require the two agencies to renegotiate the interagency agreement and the
EFAST 2 will need to be changed to capture the new information.
                                                                                                              Page 9
                        The Employee Plans Function Should Continue Its
                      Efforts to Obtain Needed Retirement Plan Information



           •   Annually evaluate the information it needs from annual filings to meet its tax
               administration responsibilities for employer-sponsored retirement plans. In doing
               so, the EP function will ensure that the benefits of this information outweigh the
               cost and burden on plan sponsors and administrators.
           •   Continue to work with the Tax Exempt and Government Entities Counsel to
               explore regulatory options for mandatory electronic filing of annual returns.
           •   Continue to work with the Department of the Treasury Office of Benefits Tax
               Counsel to explore legislative options for mandatory electronic filing of annual
               returns.
Recommendation 2: Coordinate with the DOL on the development of a timetable for
implementing changes to the annual return filings to obtain information needed to meet the tax
administration responsibilities of the EP function.
       Management’s Response: The IRS agreed with this recommendation. The
       EP function and the Tax Exempt and Government Entities Division Business Systems
       Planning office will work with the DOL to develop a timetable for implementing periodic
       changes to the content of the annual return to obtain information needed by the
       EP function.




                                                                                          Page 10
                             The Employee Plans Function Should Continue Its
                           Efforts to Obtain Needed Retirement Plan Information



                                                                                                     Appendix I


          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the EP function’s ability to
achieve its tax administration responsibilities has been significantly affected by a reduction of
previously available information from employer-sponsored retirement plans annual return filings.
To accomplish this objective, we:
I.       Determined what information is no longer required on the revised Form 5500 series of
         returns1 and transmitted to the IRS by the new EFAST 2.
         A. Compared Plan Year2 2008 Forms 5500 and related schedules to Plan Years 2009 and
            2010 forms and schedules, developed for use after implementation of the EFAST 2,
            to determine what information is no longer required.
         B. Compared the prior EP function’s Returns Inventory and Classification System3
            database record layout with the information the DOL is currently providing to the
            EP function to determine the differences. We confirmed the previously available
            information by reviewing EP function reports and interviewing EP function
            Classification and Examination program personnel.
         C. Interviewed EP function personnel involved in the Form 5500 revision process to
            determine the causes or reasons for the loss of previously available information.
II.      Determined what impact the loss of previously available Form 5500 information has on
         the EP function’s ability to accomplish its tax administration responsibilities.
         A. Interviewed EP function Classification and Examination program personnel to
            determine their concerns and issues.
         B. Interviewed EP function Classification and Examination program personnel to
            determine how they can accomplish their tax administration responsibilities without
            the previously available information.



1
  This includes Annual Return/Report of Employee Benefit Plan (Form 5500), Annual Return of One-Participant
(Owners and Their Spouses) Retirement Plan (Form 5500-EZ), and related schedules.
2
  A plan year is a calendar year, or an alternative 12-month period, a retirement plan uses for plan administration.
However, the plan year can be shorter in certain circumstances (e.g., the first year a plan is in operation).
3
  The Returns Inventory and Classification System provides users access to information related to the filing and
processing of forms for the Tax Exempt and Government Entities Division, which includes the EP function.
                                                                                                              Page 11
                         The Employee Plans Function Should Continue Its
                       Efforts to Obtain Needed Retirement Plan Information



Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the process used to select and classify
cases for examination from IRS returns and schedules that were no longer required to be filed
and the process used to identify and implement alternatives to obtain previously available
information. We evaluated these controls by performing general tests to determine what
information is no longer received since the DOL began electronically processing through
the EFAST 2, what impact the information that is no longer required would have on the
EP function’s ability to achieve its tax administration responsibilities, and what alternatives are
used or may exist to meet the EP function program’s informational needs.




                                                                                             Page 12
                      The Employee Plans Function Should Continue Its
                    Efforts to Obtain Needed Retirement Plan Information



                                                                           Appendix II

                Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Troy D. Paterson, Director
James V. Westcott, Audit Manager
John W. Baxter, Lead Auditor
William Simmons, Senior Auditor
Allison P. Meyer, Auditor




                                                                                  Page 13
                      The Employee Plans Function Should Continue Its
                    Efforts to Obtain Needed Retirement Plan Information



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Acting Deputy Commissioner, Tax Exempt and Government Entities Division SE:T
Director, Employee Plans, Tax Exempt and Government Entities Division SE:T:EP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Director, Communications and Liaison, Tax Exempt and Government Entities
Division SE:T:CL




                                                                                  Page 14
                           The Employee Plans Function Should Continue Its
                         Efforts to Obtain Needed Retirement Plan Information



                                                                                             Appendix IV

                      Information No Longer Received
                            on Annual Returns

Prior to January 2010, the DOL manually processed IRS paper returns and schedules. Beginning
in January 2010, plans subject to filing requirements under the Employee Retirement Income
Security Act of 1974,1 but not the Internal Revenue Code, were required to file an electronic
return. Because the EP function did not issue regulations to mandate electronic filing under the
Internal Revenue Code and the DOL accepts electronically filed returns only under the
EFAST 2, the EP function agreed that it would no longer require certain IRS information to be
filed through the DOL. This appendix shows a detailed list of the previously available
IRS information from annual returns.
Beginning in January 2010, the DOL also began accepting a Short Form Annual Return/Report
of Employee Benefit Plan (Form 5500-SF). The Form 5500-SF was designed as an alternative
for selected retirement plans who met specific filing requirements instead of the longer Annual
Return/Report of Employee Benefit Plan (Form 5500). However, because our audit only
included analysis of information on forms that were required to be filed before January 2010, the
Form 5500-SF was not considered to be within the scope of our audit.
Annual Return of One-Participant (Owners and Their Spouses) Retirement Plan (Form 5500-EZ)
This return is used by retirement plans that are not subject to the requirements of the Employee
Retirement Income Security Act, but are subject to IRS filing requirements. Because the
EFAST 2 accepts only electronically filed returns, the IRS regained the responsibility for
manually processing paper Forms 5500-EZ that capture less information. While the EP function
has the authority over what information can be captured on the Form 5500-EZ, the IRS wanted
to allow retirement plan sponsors the option to either file electronically using the Form 5500-SF
or manually using the Form 5500-EZ. To ensure the plan sponsors have this option, the
EP function ensured the same questions that were on the Form 5500-EZ were incorporated on
the Form 5500-SF. As a result, the EP function is missing 39 lines of information from this
return that were previously captured before the electronic-filing mandate.2 Figure 1 shows the
previously available line-item information no longer being received.


1
  Pub. L. No. 93-406, 88 Stat. 829 (codified as amended in scattered sections of 5 U.S.C., 18 U.S.C., 26 U.S.C,
29 U.S.C., and 42 U.S.C.).
2
  During the same time period, a new Form 5500-SF was developed which allowed plans with up to 100 participants
to file a smaller amount of information than previously required on the Form 5500. IRS officials noted that this
change resulted in much less information being provided by plans with a small number of participants.
                                                                                                       Page 15
                 The Employee Plans Function Should Continue Its
               Efforts to Obtain Needed Retirement Plan Information



    Figure 1: Form 5500-EZ Information No Longer Required to Be Filed

  Line
Number(s)                 Description of Previously Required Information
    5       Name and address showing who prepared the return.
 6a – 6f    The type of plan filing the Form 5500-EZ.
   7a       Opinion/notification letter number if the plan is a master/prototype or a
            regional prototype plan.
   7b       Type of participants covered by the plan (e.g., self-employed individuals,
            partners in a partnership).
   8a       Number of qualified benefit plans maintained by the employer.
   8b       Checkmark indicating there is more than 1 plan and total assets of all plans
            exceed $250,000.
  9a – c    The number of plan participants by age category.
   10a      Is this a plan funded entirely by insurance or annuity contract?
   10b      Cash contributions received by the plan during the plan year.
   10c      Noncash contributions received by the plan during the plan year.
   10d      Total plan distributions to plan participants or beneficiaries.
   10e      Total nontaxable distributions to plan participants or beneficiaries.
   10f      Transfers to other plans.
   10g      Amounts received by plans other than contributions.
   10h      Expenses incurred by the plan other than distributions.
   10i      Is this a defined benefit plan subject to minimum funding requirements?
   12a      Current value of plan assets of partnership/joint venture interests.
   12b      Current value of employer real property assets.
   12c      Current value of real estate held other than employer real property.
   12d      Current value of employer securities.
   12f      Current value of loans other than to plan participants.
   12g      Current value of tangible personal property.
   13a      Amount of any sales, exchanges, or lease of property transactions.

                                                                                    Page 16
                          The Employee Plans Function Should Continue Its
                        Efforts to Obtain Needed Retirement Plan Information




      Line
    Number(s)                       Description of Previously Required Information
       13b           Amount of any payments for services.
       13c           Amount of any acquisitions or holding of employer securities.
       13d           Amount of any loans or extension of credits.
       14a           Are there employees other than the owner/partners and spouses?
       14b           Number of employees including owner, partners, and their spouses.
       14c           Does the plan meet coverage requirements?
       15a           Did the plan distribute any annuity contracts during the plan year?
       15b           Did the plan make distributions to a married plan participant in a form other
                     than a qualified joint and survivor annuity or were there distributions made on
                     account of the death of a married plan participant to beneficiaries other than
                     the spouse of the plan participant?
       15c           Were there any loans to married plan participants during the plan year?
Source: Treasury Inspector General for Tax Administration comparison of Plan Year 2008 Form 5500-EZ to
information available through the EFAST 2 in Plan Years 2009 and 2010.

                        ESOP3 Annual Information (Form 5500 Schedule E)
Schedule E was used to satisfy IRS reporting requirements for employee stock ownership plans.
Every employee stock ownership plan or plan administrator of a plan that contained an employee
stock ownership plan was required to file this schedule. Because this schedule is no longer
required to be filed, the EP function no longer receives 32 lines of information that were
captured prior to the electronic filing mandate. Figure 2 shows the previously available line-item
information no longer being received.




3
 ESOP – Employee Stock Ownership Plan. An employee stock ownership plan is an employee benefit plan that
makes its employees owners of stock in that company.
                                                                                                   Page 17
                    The Employee Plans Function Should Continue Its
                  Efforts to Obtain Needed Retirement Plan Information



        Figure 2: Schedule E Information No Longer Required to Be Filed

  Line
Number(s)                    Description of Previously Required Information
   1a          Is the employee stock ownership plan maintained by S corporation?
   1b          Were prohibited allocations of securities in an S corporation made to any
               disqualified persons?
   2a          Did the employee stock ownership plan have any outstanding securities
               acquisition loans during the plan year?
   2b          Did the employee stock ownership plan pay out dividends on employer’s
               stock?
    3          What is the value of employee stock ownership plan assets?
    4          Under what formula is the preferred stock convertible into common stock?
  5a – c       If unallocated employer securities were released from a loan suspense
               account, indicate what type of method was used: principal and interest,
               principal, or other?
  7b – c       If a loan is part of a “back to back” loan, are the two loans similar, and do
               they have the same amortization schedule?
    8          Is this an immediate allocation loan?
   9a          Date of the securities acquisition loan.
   9b          After the acquisition of the employer securities with the loan proceeds, did the
               employee stock ownership plan own more than 50 percent of each class of
               outstanding stock of the employer corporation or the total value of all
               outstanding stock of the corporation?
   9c          If line 9b is “No,” does the securities acquisition loan satisfy transition rules
               or a specific exception?
   9d          If line 9c is “No,” enter name and address of payee to whom interest with
               respect to securities acquisition loan was paid.
   10          Amount of interest paid on securities acquisition loan.
   11a         Were any securities disposed of within 3 years of acquiring certain securities
               in a taxable event?
   11b         If line 11a is “Yes,” does one or more of the exceptions apply to all
               dispositions of employer securities?

                                                                                          Page 18
                             The Employee Plans Function Should Continue Its
                           Efforts to Obtain Needed Retirement Plan Information




      Line
    Number(s)                          Description of Previously Required Information
       12a            Were any of the employee stock ownership plan’s securities acquisition loans
                      refinanced during the reporting period?
       12b            If line 12a is “Yes,” does the refinancing meet the requirements of the Small
                      Business Job Protection Act of 1996?4
     13a – b          Do the amounts of dividends paid exceed the employer’s current or
                      accumulated earnings and profits and was it under applicable State law?
        14            If dividends deducted were used to repay an exempt loan, were any dividends
                      used to repay the loan generated by securities that were not acquired with the
                      proceeds of the loan being repaid?
        15            If line 14 is “Yes,” were the dividends paid with respect to employer
                      securities that satisfy transition rules?
        16            Did the employer make payments in redemption of stock held by employee
                      stock ownership plan participants and deduct them?
       17a            Were dividends subject to an election by plan participants or beneficiaries to
                      reinvest the dividends in employer securities?
       17b            Did the election on line 17a comply with certain requirements?
       17c            Are dividends reinvested in employer securities pursuant to the election fully
                      vested?
      18a-c           Class of stock, dividend rates, and dividends used to repay exempt loans.
Source: Treasury Inspector General for Tax Administration comparison of Plan Year 2008 Form 5500 Schedule E
to information available through the EFAST 2 in Plan Years 2009 and 2010.

          Annual Return of Fiduciary of Employee Benefit Trust (Form 5500 Schedule P)
Trustees had the option to file this IRS schedule to satisfy the requirements for an annual
information return from every Section 401(a) organization5 exempt from tax. During the
revision process to prepare the annual returns for electronic processing, EP function management
decided to eliminate this schedule. However, the eight lines from this schedule assisted EP
function personnel in identifying the trustee, whether the trustee is different from the employer,
and several types of abuse. Figure 3 shows the previously available line-item information no
longer being received.

4
 Pub.L. No. 104-188, 110 Stat. 1755 (1996).
5
 A 401(a) organization is a trust created or organized in the United States and forms part of a stock bonus, pension,
or profit-sharing plan of an employer.
                                                                                                            Page 19
                             The Employee Plans Function Should Continue Its
                           Efforts to Obtain Needed Retirement Plan Information



             Figure 3: Schedule P Information No Longer Required to Be Filed

      Line
    Number(s)                           Description of Previously Required Information
        1a             Name of the plan trustee or custodian.
      1b – c           Address of the plan trustee or custodian.
        2a             Name of the trust.
        2b             Trust’s employer identification number.
         3             Name of the plan if different from the name of the trust.
         4             Has the trustee or custodian furnished the participating employee plan(s) with
                       the trust financial information required to be reported by the plan(s)?
         5             Plan sponsor’s employee identification number on Form 5500 or
                       Form 5500-EZ.
Source: Treasury Inspector General for Tax Administration comparison of Plan Year 2005 Form 5500 Schedule P
to information available through the EFAST 2 in Plan Years 2009 and 2010.

                Qualified Pension Plan Coverage Information (Form 5500 Schedule T)
This IRS schedule was filed if a plan was maintained by 1) more than one employer and it
benefits employees who are not collectively bargained employees or 2) an employer that
operates a qualified separate line of business. Schedule T was eliminated prior to the migration
to electronic processing. However, EP function personnel contend the information was useful to
identify discriminatory plans6 and to determine if the statutory requirement level of participation
for qualified plans was met. Figure 4 shows the previously available line-item information no
longer being received.




6
 A discriminatory plan is a plan that has not met the statutory requirements for the level of participation to all
employees who have met the eligibility requirements, such as length of employment.
                                                                                                               Page 20
                          The Employee Plans Function Should Continue Its
                        Efforts to Obtain Needed Retirement Plan Information



            Figure 4: Schedule T Information No Longer Required to Be Filed

    Line
  Number(s)                         Description of Previously Required Information
     1a – b          Name and identification number of employer.
       2a            Number of qualified separate lines of business the employer operates.
       2b            Number of employees in separate lines of businesses.
       2c            Did the employer apply minimum coverage requirements on an
                     employer-wide rather than on a qualified separate line of business basis?
       2d            If the entry on line 2b is two or more and line 2c is “No,” identify the
                     qualified separate lines of business to which the coverage information is
                     given.
     3a – e          Description of the employer’s plan (more than one line may apply):
                     a) employs only highly compensated employees, b) no highly compensated
                     employees benefited under the plan, c) benefits only collectively bargained
                     employees, d) benefits all nonexcludable non-highly compensated employees,
                     and e) plan treated as satisfying minimum coverage requirements.
        4            Date the plan year began for which coverage data are being submitted.
       4a            Did leased employees perform services for the employer during the plan year?
       4b            Does the employer aggregate plans in testing whether the plan satisfies
                     coverage and nondiscrimination tests?
     4c – d          Total excludable and nonexcludable employees and the plan’s ratio using
                     information from line 4c.
      4e – f         Any disaggregated part of the plan and type of coverage requirements met.
Source: Treasury Inspector General for Tax Administration comparison of Plan Year 2004 Form 5500 Schedule T
to information available through the EFAST 2 in Plan Years 2009 and 2010.




                                                                                                   Page 21
                           The Employee Plans Function Should Continue Its
                         Efforts to Obtain Needed Retirement Plan Information



                                                                                           Appendix V

        Impact of the Lack of Previously Required
    Information on Employee Plans Function Programs

The lack of previously captured information from the Form 5500 series returns and schedules1
affects many programs within the EP function. However, each EP function program is affected
differently, both by degree and type of impact. Figure 1 summarizes EP function personnel
statements showing program objectives and how the lack of previously required information
affects EP function programs.
    Figure 1: EP Function Personnel Concerns Regarding the Impact of the Lack of
              Previously Required Information on EP Function Programs

                                                                   Impact on Program Because
          EP Function               Objective(s) for the          Certain Form 5500 Information
           Programs                     Program                       Is No Longer Required
           Promoter               1. Identifies abusive          1. Decreased compliance. The
         Investigations              transactions and the           EP function’s ability to
                                     promoters of those             effectively evaluate the nature
                                     transactions.                  and scope of the abuse will be
                                                                    reduced.
                                  2. Takes law
                                     enforcement action
                                     against promoters of
                                     abusive transactions.
          Abusive Tax             1. Identifies abusive       1. Decreased compliance by
           Avoidance                 transactions relating to    making it more difficult to
          Transactions               unusual plan assets or      identify abusive tax avoidance
                                     investments and             transactions that are surfacing.
                                     invalid collective
                                     bargaining
                                     arrangements.




1
 This includes Annual Return/Report of Employee Benefit Plan (Form 5500), Annual Return of One-Participant
(Owners and Their Spouses) Retirement Plan (Form 5500-EZ), and related schedules.
                                                                                                     Page 22
                  The Employee Plans Function Should Continue Its
                Efforts to Obtain Needed Retirement Plan Information




                                                     Impact on Program Because
   EP Function           Objective(s) for the       Certain Form 5500 Information
    Programs                 Program                    Is No Longer Required
   Investigative       1. Identifies unique audit   1. Decreased compliance from
   Workstations           risks associated with        reduced ability to identify
                          electronic commerce          abuse or potential areas of
                          that has changed the         noncompliance.
                          business practices and
                          compliance behavior
                          of retirement plans
                          allowing them to
                          engage in a variety of
                          global transactions.
  EP Risk Model        1. Focuses EP function’s     1. Increased burden placed on
                          efforts on returns with      compliant retirement plans that
                          the greatest audit           may not have been selected for
                          potential for                examinations if additional
                          identifying                  annual return information were
                          noncompliance.               available.
                                                    2. Inefficient use of resources to
                                                       effectively identify
                                                       noncompliant retirement plans
                                                       and compliance issues.
Small Business Plans   1. Performs projects to      1. Decreased compliance by
                          address compliance           making it difficult to focus
                          issues related to            examinations on noncompliant
                          retirement plans.            retirement plans.
                                                    2. Inefficient use of resources by
                                                       performing more examinations
                                                       on compliant retirement plans.




                                                                                     Page 23
                        The Employee Plans Function Should Continue Its
                      Efforts to Obtain Needed Retirement Plan Information




                                                                 Impact on Program Because
       EP Function                Objective(s) for the          Certain Form 5500 Information
        Programs                      Program                       Is No Longer Required
   EP Compliance Unit          1. Identifies and                1. Increased burden placed on
                                  evaluates                        compliant retirement plans by
                                  noncompliance issues.            subjecting them to
                                                                   needless examinations.
                               2. Identifies the
                                  characteristic(s) of          2. Less efficient use of resources
                                  noncompliant                     to identify noncompliant
                                  retirement plans                 retirement plans for
                                  associated with a                examination.
                                  compliance issue to
                                  identify examination
                                  cases.
    Classification Unit        1. Receives orders from          1. Less efficient use of resources
                                  field examiners                  resulting from less information
                                  requesting copies of             making it difficult to identify
                                  Forms 5500.                      noncompliant retirement plans.
                                  Classifiers perform           2. Decreased compliance with
                                  research to identify             plan laws when field examiners
                                  retirement plans with
                                                                   close examination cases above
                                  the compliance issue.
                                                                   their level of expertise and
                               2. Grades examination               knowledge without the
                                  cases for assignment             necessary changes.
                                  to field examiners
                                  with the required
                                  expertise and
                                  knowledge level to
                                  work the cases.
Source: Treasury Inspector General for Tax Administration interviews with various EP function personnel.




                                                                                                    Page 24
         The Employee Plans Function Should Continue Its
       Efforts to Obtain Needed Retirement Plan Information



                                                    Appendix VI

Management’s Response to the Draft Report




                                                          Page 25
  The Employee Plans Function Should Continue Its
Efforts to Obtain Needed Retirement Plan Information




                                                   Page 26
  The Employee Plans Function Should Continue Its
Efforts to Obtain Needed Retirement Plan Information




                                                   Page 27
